 

 

IN THE
Supreme Court of the United States

Hua LINH HOANG,
Petitioner,
v.
RAYMOND MADDEN,

Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

Pursuant to Rule 33.2, I hereby certify that this petition is less than 40
pages, and therefore complies with the page limit set out in Rule 33. This
brief was prepared in 13-point Century Schoolbook font.

Respectfully submitted,

CUAUHTEMOC ORTEGA
Federal Public eo

 

DATED: February 18, 2021 : By Wire YN —
, MORIAH 3 RADIN®
Deputy Federal Public Defender
Attorneys for Petitioner
*Counsel of Record
